                                                       NATIONAL SCIENCE FOUNI;>ATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESHGA TIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A09050039                                                                         Page 1 of 1



                 We identified three proposals) from a department at single institution2 containing text that
         supported an allegation of plagiarism. . After corresponding with the PIs and CoPIs 3 on these
         proposals, we were able to separate the individual contributions of the PIs and CoPIs with respect to
         the passages of copied text. In most instances, the contributors failed to provide quotation marks or
         formatting that clearly identified the text in question as copied although the contributors appeared to
         make a token effort to provide citation to source material. We communicated these deficiencies to
         those contributors. In total, the amount of copied text allocated to each contributor was minimal and
         warranted no additional actiolf.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
